IN THE
SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA - RESPONDENT
VS
GAVIN WAYNE WRIGHT - PETITIONER

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR TENTH CIRCUIT

CERTIFICATE OF SERVICE

I hereby certify that paper copies of this original Petition for Writ of
Certiorari were forwarded by third-party commercial carrier this 24th day of
June, 2021, in accordance with Rule 29 of the Rules of the Supreme Court of
the United States. I have served the enclosed MOTION FOR LEAVE TO
PROCEED JN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope
with the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days:

Original with 10 copies to: And 3 copies to:

Clerk of the Court Solicitor General of the United
Supreme Court of the United States

States Room 5616

1 First Street, N.E. Department of Justice
Washington, D.C. 20543 950 Pennsylvania Ave., N.W.

Washington, DC 20530-0001
And 1 copy each to:

Gavin Wayne Wright e A
Patrick Eugene Stein N LL i : Ac beuse fC
Curtis Wayne Allen _ Kari S. Schmidt

Counsel of Record for Petitioner
